<html>
<title> - INNOVATION IN SOLAR FUELS, ELECTRICITY STORAGE, AND ADVANCED MATERIALS</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]









                       INNOVATION IN SOLAR FUELS,
                         ELECTRICITY STORAGE, 
                         AND ADVANCED MATERIALS

=======================================================================

                                HEARING

                               BEFORE THE

                         SUBCOMMITTEE ON ENERGY

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             June 15, 2016

                               __________

                           Serial No. 114-82

                               __________

 Printed for the use of the Committee on Science, Space, and Technology




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






       Available via the World Wide Web: http://science.house.gov
       
       
       
       
                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

20-879 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001       
       
       
       
       
       
       
       
       
       

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
FRANK D. LUCAS, Oklahoma             EDDIE BERNICE JOHNSON, Texas
F. JAMES SENSENBRENNER, JR.,         ZOE LOFGREN, California
    Wisconsin                        DANIEL LIPINSKI, Illinois
DANA ROHRABACHER, California         DONNA F. EDWARDS, Maryland
RANDY NEUGEBAUER, Texas              SUZANNE BONAMICI, Oregon
MICHAEL T. McCAUL, Texas             ERIC SWALWELL, California
MO BROOKS, Alabama                   ALAN GRAYSON, Florida
RANDY HULTGREN, Illinois             AMI BERA, California
BILL POSEY, Florida                  ELIZABETH H. ESTY, Connecticut
THOMAS MASSIE, Kentucky              MARC A. VEASEY, Texas
JIM BRIDENSTINE, Oklahoma            KATHERINE M. CLARK, Massachusetts
RANDY K. WEBER, Texas                DON S. BEYER, JR., Virginia
JOHN R. MOOLENAAR, Michigan          ED PERLMUTTER, Colorado
STEVE KNIGHT, California             PAUL TONKO, New York
BRIAN BABIN, Texas                   MARK TAKANO, California
BRUCE WESTERMAN, Arkansas            BILL FOSTER, Illinois
BARBARA COMSTOCK, Virginia
GARY PALMER, Alabama
BARRY LOUDERMILK, Georgia
RALPH LEE ABRAHAM, Louisiana
DARIN LaHOOD, Illinois
WARREN DAVIDSON, Ohio
                                 ------                                

                         Subcommittee on Energy

                   HON. RANDY K. WEBER, Texas, Chair
DANA ROHRABACHER, California         ALAN GRAYSON, Florida
RANDY NEUGEBAUER, Texas              ERIC SWALWELL, California
MO BROOKS, Alabama                   MARC A. VEASEY, Texas
RANDY HULTGREN, Illinois             DANIEL LIPINSKI, Illinois
THOMAS MASSIE, Kentucky              KATHERINE M. CLARK, Massachusetts
STEPHAN KNIGHT, California           ED PERLMUTTER, Colorado
BARBARA COMSTOCK, Virginia           EDDIE BERNICE JOHNSON, Texas
BARRY LOUDERMILK, Georgia
LAMAR S. SMITH, Texas

















                            C O N T E N T S

                             June 15, 2016

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Randy K. Weber, Chairman, 
  Subcommittee on Energy, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................     4
    Written Statement............................................     6

Statement by Representative Lamar S. Smith, Chairman, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................     8
    Written Statement............................................     9

Statement by Representative Alan Grayson, Ranking Member, 
  Subcommittee on Energy, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................    11
    Written Statement............................................    13

                               Witnesses:

Dr. Nate Lewis, Professor, California Institute of Technology
    Oral Statement...............................................    15
    Written Statement............................................    18

Dr. Daniel Scherson, Professor, Case Western Reserve 
  UniversityI23Oral Statement                                        33
    Written Statement............................................    35

Dr. Collin Broholm, Professor, Johns Hopkins University
    Oral Statement...............................................    43
    Written Statement............................................    45

Dr. Daniel Hallinan Jr., Assistant Professor, Florida A&M 
  University--Florida State University College of Engineering
    Oral Statement...............................................    86
    Written Statement............................................    88
Discussion.......................................................    96

             Appendix I: Additional Material for the Record

Statement submitted by Representative Eddie Bernice Johnson, 
  Ranking Minority Member, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................   116

 
                       INNOVATION IN SOLAR FUELS,
                          ELECTRICITY STORAGE,
                         AND ADVANCED MATERIALS

                              ----------                              


                        WEDNESDAY, JUNE 15, 2016

                  House of Representatives,
                    Subcommittee on Energy,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittee met, pursuant to call, at 10:07 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Randy 
Weber [Chairman of the Subcommittee] presiding.



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Weber. The Subcommittee on Energy will come to 
order. Without objection, the Chair is authorized to declare 
recesses of the Subcommittee at any time.
    Welcome to today's hearing entitled ``Innovation in Solar 
Fuels, Electricity Storage, and Advanced Materials.'' I 
recognize myself for an opening statement.
    Good morning. Today, we will hear from a panel of experts 
on the status of America's basic research portfolio, which 
provides the foundation for development of solar fuels, 
electricity storage, and quantum computing systems. Hearings 
like today help remind us of the Science Committee's core 
focus: the basic research that provides the foundation of 
technology through breakthroughs.
    We're going to discuss the science behind potentially 
groundbreaking technology today. But before America ever sees 
the deployment of a commercial solar fuel system or we move to 
quantum computing, a lot of discovery science must be 
accomplished. For the solar fuel process, also known as 
artificial photosynthesis, new materials and catalysts will 
need to be developed through research. If this research yields 
the right materials, scientists could create a system that 
could consolidate solar power and energy storage into one 
cohesive process. This would potentially remove the 
intermittency of solar energy and make it a reliable power 
source for chemical fuels production. That is a game-changer.
    In the field of electricity storage research, there is a 
lot of excitement--or as I like to say there's electricity in 
the air--about more efficient batteries that could operate for 
longer durations under decreased charge times. But not enough 
people are asking just how could we design a battery system 
that moves more electrons at the atomic level, a key aspect 
to--excuse me--drastically increasing the efficiency or power 
of a battery. This transformational approach, known as 
multivalent ion intercalation, will use foundational study of 
electrochemistry to build a better battery from the ground up.
    And then finally, there is quantum computing, which relies 
on a thorough understanding of quantum mechanics, a challenging 
concept that is a longer discussion for a different hearing. 
For today, I hope we can discuss how a quantum computing system 
could change the way computers operate. In order to achieve 
this kind of revolutionary improvement in computing, we're 
going to need foundational knowledge in the materials needed to 
build those systems also known as quantum materials.
    I look forward to hearing from Dr. Broholm--have I got that 
right, Doctor----
    Dr. Broholm. Yes.
    Chairman Weber. --in his research--your research in that 
field.
    Today, we hear a lot of enthusiasm for solar power, 
batteries, and high-performance computing technology, yet few 
innovators are talking about how these technologies could be 
transformed at the fundamental level. In Congress, we have to 
take the long-term view and be patient, making smart 
investments in research that can lead to the next big 
discovery.
    When it comes to providing strong support for basic 
research, this Science Committee won't get any major accolades 
or headlines today. But someday, someday, when the next 
disruptive technology changes our economy for the better, I 
firmly believe that discovery science will play that central 
role.
    DOE must prioritize basic research over grants for 
technology that is ready for commercial deployment. When the 
government steps in to push today's technology in the energy 
market, it's actually competing against private investors and 
it uses limited resources to do so. But when the government 
supports basic research and development, everyone has the 
opportunity to access the fundamental knowledge that can lead 
to the development of future energy technologies.
    I want to thank our accomplished panel of witnesses for 
testifying today, and I look forward to a productive discussion 
about the DOE basic energy research portfolio.
    [The prepared statement of Chairman Weber follows:]
    

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
      
    Chairman Weber. I now recognize the Ranking Member.
    Mr. Grayson. Sorry, would the Committee Chair like to 
precede me? Would the Committee Chair like to precede me?
    Chairman Smith. I'd be happy to. I thank the gentleman. And 
let me thank the Chairman as well.
    Today, we will examine American innovation in solar fuels, 
electricity storage, and advanced materials. The Department of 
Energy's Office of Science is the nation's lead federal agency 
for basic research in the physical sciences. This type of 
fundamental research allows scientists to make groundbreaking 
discoveries about everything from our universe to the smallest 
particle. It has led to transformative breakthroughs in energy 
science that will allow the private sector to develop 
innovative energy technologies.
    Today's hearing will provide a status update on the 
Department's basic research in solar chemistry, energy storage, 
and advanced materials. Electricity storage is one of the next 
frontiers in energy research and development. Innovation in 
batteries could help bring affordable renewable energy to the 
market without costly subsidies or mandates.
    By investing in the basic scientific research that will 
underpin and lead to new advanced battery technology, we can 
enable utilities and others to store and deliver power produced 
elsewhere. This will allow us to take advantage of energy from 
the diverse natural resources available across the country.
    Another high-reward application of energy basic research is 
solar fuels, also known as artificial photosynthesis. Through 
the study of chemistry and materials science, researchers are 
developing systems that can use energy from sunlight to yield a 
range of chemical fuels.
    Our last topic for today's hearing is advanced materials 
research. By examining substances at the atomic level, 
researchers can develop materials with the exact qualities 
necessary for an application, like thickness, strength, or heat 
resistance. These new materials could provide the capability 
for quantum computing systems that will fundamentally change 
the way we move and process data.
    Basic scientific research like the work funded by DOE's 
Office of Science requires a long-term commitment. While this 
groundbreaking science can eventually support the development 
of new advanced energy technologies by the private sector, 
Congress must ensure limited federal dollars are spent wisely 
and efficiently. Federal research and development can build the 
foundation for the next major scientific breakthrough.
    As we shape the future of the Department of Energy, our 
priority must be basic energy science and research that only 
the federal government has the resources and mission to pursue. 
This will enable the private sector, driven by the profit 
motive, to develop and move groundbreaking technology to the 
market across the energy spectrum, create jobs, and grow our 
economy.
    Thank you, Mr. Chairman. I want to thank the Ranking Member 
for letting me precede him as well.
    [The prepared statement of Chairman Smith follows:]
    
    
  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
    
    Chairman Weber. I thank the gentleman.
    Now, the Ranking Member is recognized for a five minute 
opening statement.
    Mr. Grayson. Thank you, Chairman Weber. Thank you, Chairman 
Smith, for holding this hearing, and thank you to the witnesses 
for providing your testimony today.
    The Basic Energy Sciences program in the Department of 
Energy's Office of Science supports fundamental research in 
materials science, physics, chemistry, and engineering with an 
emphasis on energy applications. BES is the largest program in 
the Office of Science, and it's home to several state-of-the-
art facilities that provide world-class capabilities to the 
scientific community. BES is home to five of the world's 
Advanced Light Sources, to unique neutron scattering 
facilities, and five nanoscale research centers.
    All these BES facilities are considered user facilities 
meaning that they provide broad access not only to scientific 
government inquiry but also to university researchers and 
private industry. That being said, please do not try neutron 
scattering at home.
    Each year, over 14,000 scientists use these facilities, and 
the demand for access to facilities can exceed the time 
available. In many cases, the high demand for these facilities 
requires weightless and extensive efforts to fit as many 
interested users into the schedule as possible.
    The vast array of research and diverse collection of 
scientists that take advantage of these facilities make them 
fertile ground for scientific collaboration and also innovation 
cutting across scientific specialties. The knowledge gained 
through research supported by BES underpins the applied energy 
research supported by other DOE programs and by the private 
sector. Innovation and materials science, chemical analysis, 
geological imagery, and electrochemistry can have far-reaching 
impacts on renewable energy, energy efficiency, battery 
storage, and nuclear power to name just a few subjects.
    I look forward to hearing from our witnesses as to how they 
put benefited from federal support that we provided to build 
these user facilities, as well as other resources provided by 
BES. I'd particularly like to welcome Dr. Hallinan from Florida 
A&M and Florida State University's College of Engineering to 
today's hearing. His research has the potential to achieve 
considerable gains in battery storage, which would help the 
renewable energy sector play an even larger role in our economy 
in the coming years.
    Solving renewable energy's day-versus-night challenge could 
allow for a faster transition to a low-carbon energy future for 
the United States and the world. Also, it would be good if you 
can make the sun shine at night, but that's probably outside 
the scope of your research.
    Dr. Hallinan, as we will hear, has relied upon the Advanced 
Light Source and the Advanced Photon Source facilities to 
advance his work by testing new solid polymers that can be used 
as battery electrolytes. His work is an excellent example of 
what we can accomplish if we fund the vital research and 
facilities of the Office of Science amply.
    Last week, the Basic Energy Science Advisory Committee 
released a new report on the prioritization of upgrades to the 
major BES facilities. One of the witnesses here today may have 
been directly involved in developing this report. I hope we can 
consider revisiting this topic in the near future with a closer 
look at the facility upgrades that are currently under 
consideration. These proposed upgrades represent major 
government investments and thus major opportunities. 
Prioritizing and funding the research that's being highlighted 
today should certainly be a bipartisan issue and one in which 
we should make considerable progress on by working together.
    With that, I yield the balance of my time. Thank you, Mr. 
Chairman.
    [The prepared statement of Mr. Grayson follows:]
    
    

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
     
    Chairman Weber. And I thank the gentleman. Again, I thank 
you for letting the Ranking--I mean, for our full Committee 
Chair go first.
    Let me introduce our witnesses today. Our first witness 
today is Dr. Nathan Lewis, Professor at the California 
Institute of Technology. Dr. Lewis is an inorganic materials 
chemist who is a globally recognized authority in artificial 
photosynthesis. Perhaps he's the one that needs to make the 
space in the night. Dr. Lewis received his Ph.D. in chemistry 
from MIT.
    Our second witness today is Dr. Daniel Scherson, Professor 
at Case Western Reserve University. Dr. Scherson received his 
Ph.D. in chemistry from the University of California Davis.
    Our next witness today is Dr. Collin Broholm. Am I saying 
that correctly, Doctor?
    Dr. Broholm. Yes.
    Chairman Weber. Yes. A Professor at Johns Hopkins 
University, Dr. Broholm received his Ph.D. from the University 
of Copenhagen.
    And I will now yield to the Ranking Member to introduce our 
final witness.
    Mr. Grayson. Thank you. Dr. Daniel Hallinan is 
unaccountably only Assistant Professor--I don't get that at 
all; you should be a full professor--in the College of 
Engineering at Florida A&M and Florida State University. As an 
independent investigator, he researches the use of solid 
polymers as electrolyte membranes in batteries, which have the 
potential to offer a safer, longer-lasting battery.
    During his career, he has utilized both the Advanced Photon 
Source at Argonne National Lab and the Advanced Light Source at 
Lawrence Berkeley National Lab. His current research allows him 
to visit the Advanced Photon Source with his students regularly 
to explore the fundamental makeup of the materials that they're 
testing and from time to time actually insert the students into 
the photon source and light them up. No, no, that's not what he 
does. Never mind that.
    Dr. Hallinan has degrees in chemical engineering and 
philosophy from Lafayette College and a Ph.D. in chemical 
engineering from Drexel University. His passion for science and 
innovative research has certainly been an inspiration to his 
students, and his work is a perfect example of our conversation 
today about supporting basic energy sciences and why it is so 
important. Thank you for testifying.
    Chairman Weber. Thank you, Mr. Grayson.
    I now recognize Dr. Lewis for five minutes to present his 
testimony. Dr. Lewis?

            TESTIMONY OF DR. NATE LEWIS, PROFESSOR,

               CALIFORNIA INSTITUTE OF TECHNOLOGY

    Dr. Lewis. Chairman Smith, Chairman Weber, Ranking Member 
Grayson, Members of the Subcommittee, thank you very much for 
the opportunity to discuss this very exciting and timely 
research area of artificial photosynthesis, which is the direct 
production of fuels from sunlight.
    Artificial photosynthesis has the potential indeed to be a 
game-changing energy technology, cost-effectively producing 
fuels that are compatible with our existing infrastructure, and 
providing us with both energy and environmental security.
    Artificial photosynthesis is inspired by plants except that 
it can be over 10 times more efficient than natural 
photosynthesis, avoiding the need to trade food for fuel and 
producing a fuel unlike lignocellulose that we can directly 
used to power our vehicles, to potentially make ammonia for 
fertilizer to feed people around the world, and for other uses 
that they may develop.
    Solar fuels production would also solve massive grid-scale 
energy storage so when the sun doesn't shine at night, we can 
still provide power to whenever people need it and carbon-
neutral transportation fuels, which are both critical gaps at 
present that research is needed to obtain a full carbon-neutral 
energy system.
    Artificial photosynthesis does not look like a leaf, nor 
does it look like a solar panel. Instead, imagine a high-
performance fabric that could be rolled out like artificial 
turf, supply that with sunlight, water, and perhaps other 
feedstocks from the air like nitrogen or carbon dioxide, and 
produce a fuel that gets wicked out into drainage pipes and 
collected for use. It's that simple in principle.
    Many approaches to solar fuels are being pursued. Some are 
taking biological molecules like the green pigment chlorophylls 
and using them coupled to manmade catalysts. Others use all 
inorganic materials like semiconductors at the nanoscale and 
couple them to catalysts like ones used in fuel cells. Still 
others use metal complexes as dyes and couple them to molecular 
catalysts.
    Laboratories like mine at Caltech have already demonstrated 
functional solar fuels systems through advances in nanoscience 
that have enabled us to fabricate nanofibers of semiconductors 
that can absorb light and couple them to catalysts all in a 
piece of plastic. So we know this is possible, but we need to 
continue to innovate and perform fundamental research to make 
it practical.
    A full system of solar fuels needs five components, two 
materials to absorb sunlight, one to capture the blue part of 
the rainbow, the other to capture the red part of the rainbow 
to make it very efficient. We need two catalysts, one to 
oxidize water from the air to provide electrons to make the 
reduced catalyst make the fuel that we want to harvest. We also 
need a membrane to separate those products to ensure that the 
system is safe and doesn't explode.
    We actually have all of those pieces. What we don't have is 
all of those pieces all working together seamlessly in one 
system where they all are stable and mutually compatible. 
Research opportunities include the use of high-performance 
computation to design new catalysts, to design new 
semiconductors, and to do modeling and simulation to help us 
understand how to make the system work as a whole, not just the 
pieces.
    Many approaches are useful, and many fuels could be 
produced. We might produce a liquid fuel directly. We might 
produce a gaseous fuel and then convert it to a liquid fuel. We 
might think about a solar refinery the way we have an oil 
refinery where in comes our solar crude and then we convert it 
to various fuels as the output using the stained chemical 
processes that we use today.
    In closing, I also would like to make two points. One is 
that many other countries now have burgeoning efforts in solar 
fuels. There are large efforts starting in Korea, Japan, China, 
Sweden, Germany, and the EU. We should beneficially leverage 
those efforts. We're well-positioned to do that given our 
historical leadership in solar fuels in the United States.
    The second point is that solar fuels is an intellectual 
challenge that stimulates our young scientists, our graduate 
students, our postdocs involving nanoscience, material science, 
and fundamental research and energy broadly to give us better 
options for energy technologies than the ones that we have now. 
Thank you.
    [The prepared statement of Dr. Lewis follows:]
    

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
    Chairman Weber. Thank you, Dr. Lewis.
    Dr. Scherson, you're recognized for five minutes.

          TESTIMONY OF DR. DANIEL SCHERSON, PROFESSOR,

                CASE WESTERN RESERVE UNIVERSITY

    Dr. Scherson. Thank you.
    Chairman Smith, Chairman Weber, Ranking Member Grayson, and 
Members of the Subcommittee, I thank you for the opportunity to 
testify in today's hearing on innovation in solar fuels, 
electricity storage----
    Chairman Weber. Dr. Scherson, is your mike on? And put your 
mike----
    Dr. Scherson. My apologies, sir.
    Chairman Weber. There you go, right in front of you.
    Dr. Scherson. All right. Could I start again?
    Chairman Smith, Chairman Weber, Ranking Member Grayson, and 
Members of the Subcommittee, thank you for the opportunity to 
testify in today's hearing on innovation in solar fuels, 
electricity storage, and advanced materials. My name is Daniel 
Scherson, and I'm the Frank Hovorka Professor of Chemistry and 
Director of the Ernest B. Yeager Center for Electrochemical 
Sciences at Case Western Reserve University in Cleveland, Ohio, 
and until a few days ago, President of the Electrochemical 
Society.
    Electrochemistry, a 2-century-old discipline, has reemerged 
in recent years as key to achieve sustainability and improve 
human welfare. The scientific and technological domain of 
electrochemistry is very wide, extending from the corrosive 
effects of the weather on the safety and integrity of our 
bridges and roads, to the management of diabetes and 
Parkinson's disease, and to the fabrication of three-
dimensional circuitry of ever-smaller and more complex 
architecture. In addition, electrochemistry is becoming central 
to the way in which we generate, store, and manage electricity 
derived from such intermittent energy sources as the sun and 
wind.
    Among the most ubiquitous electrochemical devices ever 
invented are batteries. Mostly hidden from sight, batteries 
convert chemicals into electrical energy used to power cell 
phones and portable electronics, which are critical to the way 
we communicate and store information, as well as electrical 
vehicles, which are expected to mitigate the dangers posed by 
the release of greenhouse gases into the atmosphere.
    I have been asked to focus my attention this morning on 
aspects of electrochemistry that relate to energy storage, 
which are expected to greatly impact not only the 
transportation sector but also the management and optimization 
of the electrical grid, which combined account for 2/3 of all 
the energy used in the United States. Scientific and 
technological advances in this area will bring about a 
reduction in operating costs, spur economic growth, and create 
new jobs and promote U.S. innovation in the global marketplace.
    The advent of ever more powerful computers and advanced 
theoretical methods have made it possible to predict with 
increased accuracy the behavior not only of materials but also 
of interfaces. The latter play a key role in the chemical 
industry where there is a strong pressure to develop effective 
catalysts to increase yields and lower energy demands. This is 
also true in the area of electrocatalysis, which is critical to 
the optimization of electrolyzers and fuel cells, yet another 
class of electrochemical energy conversion devices.
    In the area of transportation, any new developments aimed 
at augmenting reliability, safety, and comfort must be made 
without compromising performance. Today, batteries for electric 
cars cannot match already-established standards for range per 
tank of gasoline-powered vehicles. In simple terms, the energy 
a battery can store depends on the charge capacity and its 
voltage. So whereas the energy is dictated by thermodynamics, 
the power batteries can deliver is given by the current times 
the voltage.
    To illustrate, lithium-ion batteries rely on only a single 
electron per atom of electrode material to store energy and 
deliver power. One obvious solution to increase the energy is 
then to double or, better yet, triple the number of electrons 
per atom of storage material without decreasing its voltage. 
Although the viability of such a concept has been demonstrated 
for the case of magnesium, a divalent metal, using a purely 
empirical approach, its performance is still below that 
required for meeting the demands of the largest markets.
    Theoretical work at the Joint Center for Electrochemical 
Storage Research, JCESR, DOE's energy hub led by Argonne 
National Laboratory, has unveiled new yet-to-be synthesized 
materials that display promising characteristics. Results have 
shown that the primary bottleneck resides in the mobility of 
divalent magnesium ion within the host lattice, which is 
greatly enhancing materials where the ions sit in energetically 
and unfavorable sites as compared to the sites along the path 
of migration. Such design rules have been validated in the 
laboratory for known materials, and arrangements have been made 
with partners, laboratories to synthesize these new promising 
materials.
    Equally important is the search of new organic electrolytes 
exhibiting large voltage windows of stability, including ionic 
solvation. From an overall perspective, the problems that 
remain to be resolved towards achieving sustainability demand a 
fundamental understanding of the basic processes underlying 
energy conversion and energy storage at a microscopic level and 
the development of spectroscopic and structural probes with 
highly spatial and temporal resolution to monitor individual 
atomic and molecular events. Such knowledge can only come from 
new generations of scientists trained at our colleges, 
universities, and national laboratories, which will require 
increased research support from the government.
    Thank you.
    [The prepared statement of Dr. Scherson follows:]
    
    
 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
        
    Chairman Weber. Thank you, Dr. Scherson.
    Dr. Broholm, you are recognized for five minutes.

                TESTIMONY OF DR. COLLIN BROHOLM,

              PROFESSOR, JOHNS HOPKINS UNIVERSITY

    Dr. Broholm. Thank you very much. Chairman Weber, Ranking 
Member Grayson, and distinguished Members of the Subcommittee 
on Energy, thank you very much for the opportunity to testify 
today on the topic of quantum materials.
    Seventy years ago when amplification of an electrical 
signal by a transistor was first demonstrated, no one could 
have imagined that the average person in 2016 would employ 
billions of transistors in their energy and information-
intensive lives. What will be the next materials-based 
technological revolution, and how can we ensure the United 
States once again leads the way?
    Since its 1947 discovery of the transistor, Bell 
Laboratories, now a part of Nokia, has shrunk and is no longer 
active in fundamental materials research. While the 
opportunities for groundbreaking progress from advanced 
materials have never been greater, the research now has a broad 
and fundamental character that no single company can sustain.
    The specific example that I'd like to focus on is quantum 
materials. Quantum mechanics has key effects in all materials, 
but the most dramatic departure from the familiar generally 
fade from view beyond the atomic scale. The Heisenberg 
uncertainty principle is, however, on display in elemental 
helium that fails to solidify upon cooling even to the absolute 
zero temperature. Instead, an astounding superfluid state 
occurs where atoms form a coherent matter wave that flows 
without any friction whatsoever.
    We now find it may be possible to realize such 
counterintuitive properties of matter in a new class of quantum 
materials, of which I shall provide a couple of examples.
    Superconductivity is a low-temperature property of many 
metals, including aluminum wherein electrons form a coherent 
wave much as the atoms in superfluid helium. But because 
electrons carry charge, an electrical current can then flow 
with zero resistance. While presently available, 
superconductors require cryogenic cooling, we know of no reason 
that superconductivity like ferromagnetism should not be 
possible at much higher temperatures.
    A practical superconductor would have enormous 
technological consequences, including the ability to generate, 
store, transport, and utilize electrical energy without 
resistive losses. There's much recent progress in the 
scientific understanding of a new class of superconductivity 
enhanced by interactions between electrons. While we do not 
have a winner yet, this fortifies our belief that a practical 
superconducting material will eventually be discovered.
    The next topic is topological materials. The geometry of 
the wave function that describes electrons in these materials 
gives rise to revolutionary electrical properties. In a 
topological insulator, for example, all surfaces are 
electrically conducting even though the core or the center of 
the material is actually insulating. And this is a really 
appealing property considering that the surface transport must 
typically be engineered into electrical devices and is 
associated with significant resistive energy losses. In 
topological insulators, a high-quality conducting surface 
occurs spontaneously, and there are many more fascinating 
properties of topological materials that indicate they will 
have transformative technological impacts.
    Digital archiving of events from those of individual 
families to those that define our times is generally based on 
magnetic information storage. While hard disc storage densities 
now exceed 1 terabit per square inch, each bit still involves a 
very large number of atoms. By using wrinkles on a prevailing 
order within a quantum material to store information, it may be 
possible to dramatically increase the information storage 
density.
    Finally, a new form of information processing called 
quantum computing has the potential to transform decision-
making. One of the approaches now being pursued is to utilize 
so-called quasi-particles within a quantum material to carry 
and process information. While this is a long-term vision, it 
is as feasible now as an integrated circuit with 10 billion 
transistors must have seemed like in 1947.
    Given the potential technological impacts, quantum 
materials are receiving huge worldwide attention. Dedicated 
research centers are proliferating, and I would argue that 
within the DOE as well, quantum material should be an area of 
high priority. The Basic Research Needs Report on quantum 
materials identifies four priority research directions that 
would accelerate scientific progress in quantum materials and 
their technological deployment.
    So as in much of the modern development of advanced 
materials, world-class tools are essential for this work. Such 
as the neutron sources at Oak Ridge Lab and the synchrotron and 
free electron laser-based light sources, these are absolutely 
essential to be able to sustain--to be able to do this kind of 
work. And while these are already excellent facilities that are 
having strong impacts, several are in urgent need of upgrades 
to sustain international leadership.
    In the continuing quest to bend materials to satisfy our 
needs, it is inevitable that we should eventually employ the 
wave-like nature of matter for new functional materials and 
electronic devices. To do so requires a deep fundamental 
knowledge of interacting electrons in the quantum realm, 
versatile abilities to synthesize new materials from the atomic 
scale to bolt single crystals, and an array of experimental 
tools that probe structure and motion over broad range of 
length and time scales.
    Sustained basic research efforts in quantum materials can 
ensure the United States leads the way as these materials 
transform a broad range of energy and information technologies. 
Thank you.
    [The prepared statement of Dr. Broholm follows:]
    
    
 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    
  
    Chairman Weber. Thank you, Dr. Broholm.
    Dr. Hallinan, you're recognized for five minutes.

             TESTIMONY OF DR. DANIEL HALLINAN JR.,

                      ASSISTANT PROFESSOR,

  FLORIDA A&M UNIVERSITY--FLORIDA STATE UNIVERSITY COLLEGE OF 
                          ENGINEERING

    Mr. Hallinan. Good morning. Thank you for the opportunity 
to testify in today's hearing.
    I'm here to speak to the importance of the Department of 
Energy's national light sources to research and to the 
technological challenges of the nation. I will also briefly 
address the impact of the proposed upgrades on research 
capabilities and U.S. scientific competitiveness. I thank the 
Committee for its long-standing and robust support of national 
light sources and energy research.
    Synchrotron light sources are large-scale facilities. These 
clearly are not possible--practical for individual academic or 
industrial labs, let alone at home. However, they enable high-
impact research that would not be possible otherwise, and they 
advance our scientific understanding of matter across length 
scales from the atomic to that which we can see with our own 
eyes. They provide insight into dynamics from ultrafast making 
and breaking of chemical bonds to structural relaxations that 
take longer than a year. They allow us to map in three 
dimensions the composition of materials that are poised to 
address energy and water needs of the country and the world.
    So my personal experience with synchrotron light sources 
began during my postdoctoral fellowship at Lawrence Berkeley 
National Laboratory where I used four of the beam lines of the 
Advanced Light Source, and I worked with beam line scientists 
there. Now as an Assistant Professor at Florida State 
University, my group continues to collaborate with scientists 
at Berkeley Lab, but we also use, due to uniquenesses, some 
beam lines at the Advanced Photon Source of Argonne National 
Lab. FSU, Florida State University, recognizes the value of the 
travel to do this research, and they support it.
    So this schematic that you see on the monitors I'm going to 
use just to explain to you briefly how the synchrotron light 
source actually works. So electrons are accelerated to near the 
speed of light around this ring, and in order to get them to 
curve around the ring, magnets are used. And when the magnets 
curve the electrons, x-rays are released tangentially, and you 
can see those x-rays then go to experiment stations. And there 
are many experiment stations located all around this ring. So 
they are--and there are many different types of experiments 
that can be done with these x-rays.
    So you can categorize those experiments into three main 
types, and that's scattering, microscopy, and spectroscopy. So 
with scattering, x-ray scattering allows us to do is to look at 
both length and time scales of a very wide range of length and 
time scales of complex materials. Microscopy allows us to look 
inside materials so we can get inside something you couldn't 
see inside of with optical light and very small length scales 
and we can see the composition in there. And then spectroscopy 
specifically gives us the composition of materials. So, for 
example, we can watch the chemical changes that occur as we 
charge and discharge a battery that occur in the electrode, for 
example.
    So just some statistics about these user facilities, there 
are many thousands of researchers that access the light sources 
across the nation each year at no charge, but this access is 
based on a competitive process. And the competitive process is 
to ensure that sound and impactful science is being conducted. 
The researchers come from a wide range of fields and generate 
thousands of research publications each year, contributing 
significantly to the nation's innovation-based economy.
    And the most exciting thing to me is that these synchrotron 
light sources enable numerous scientific discoveries that 
wouldn't be practical without the facilities. And this 
practical uniqueness of each facility is the primary reason 
that they continue to be an integral part of my research 
program.
    So I'll mention two areas of my personal research that they 
impact. So the first is safer, longer-lasting batteries. With 
batteries, we could increase dramatically the efficiency of our 
transportation. These electric vehicles are much more efficient 
than internal combustion engines. But commercial lithium-ion 
batteries now are not inherently safe. They have a flammable 
liquid electrolyte. There are engineering controls to protect 
against that, but they're not inherently safe, so that's why 
we're interested in polymer electrolytes. And these polymer 
electrolytes can not only enable safer batteries but they're 
compatible with some advanced electrode materials. But their 
dynamics are somewhat limited, and so we're studying the 
dynamics and the structure of polymer electrolytes for 
batteries.
    The other area that I'm really interested I'm just going to 
touch on for a moment is energy-efficient water generation. So 
polymer electrolytes, polymers with charge in them are actually 
promising materials for generating more energy-efficient water 
from desalination, for example. But in order to do that, the 
structure of the polymer is very important, and that structure 
is a function of the water content and the salt concentration 
in the polymer. So we're using these--some of these x-ray 
facilities to study the structure as a function of salt and 
water in these polymers.
    So in closing, for those of you who have not had the 
opportunity to visit one of these facilities, I would like to 
impress upon you the scale. So as you saw in that schematic, 
these things can be the size of a baseball field or even larger 
than the size of a whole baseball stadium depending on the 
facility, and they have hundreds of personnel, highly trained 
personnel, who work as a team to keep these things operating 
consistently and safely. There are a lot of safety concerns.
    So this was really inspiring to me to see this many people 
working together on science. And I think it's a testament to 
what we have achieved, but new opportunities do await with the 
most recent synchrotron breakthroughs, and I encourage you to 
continue to robustly support the operating budgets of these 
facilities, as well as the proposed upgrades.
    I thank you for your time, and I'm happy to answer any 
questions you might have.
    [The prepared statement of Dr. Hallinan follows:]
    
    
  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
    
    
    Chairman Weber. Thank you, Dr. Hallinan.
    I now recognize myself for five minutes, although that's 
not enough time for questions.
    Dr. Lewis, you mentioned in your testimony that 
multidisciplinary teams of researchers can serve as a useful 
mechanism to advance to artificial photosynthesis research. Do 
you think that that model is the preferred approach to this 
science compared to individual investigator labs? And then I'm 
going to have you weigh in on it also, too--well, I'll come 
back to you. Go ahead, Dr. Lewis.
    Dr. Lewis. Thank you for the question. I think we need 
both. We need individual investigators still exploring all 
sorts of possibilities, and then we need teams of people 
because solar fuels is much like building a battery. If you 
have one piece, a catalyst, or you have another piece, a light 
absorber, and they don't work together or they're not safe 
operating together, then you still don't have anything that's 
relevant in the end.
    So this is where you need the teams of people. You need the 
teams of people to think at the systems level to make sure that 
we're all rowing our oars in concert toward the same end goal, 
and that's best done by having engineers, chemical and 
mechanical engineers, by having applied physicists, by having 
chemists all at least talking to each other on a regular basis 
and working toward the same end goal, whether they're all in 
one facility or distributed in different facilities by 
videoconferencing is less important than that they all are on 
the same page.
    Chairman Weber. How often do they talk to one another and 
in what format? And I think you may have answer part of that 
question, videoconferencing. How often does that take place?
    Dr. Lewis. It depends on the facility. In Energy Frontier 
Research Centers, and Energy Innovation Hubs that I've been 
affiliated with on some cases every day, in some cases every 
week, but certainly more often than every month. A lot of it is 
in person, and for remote sites, routinely by video.
    Chairman Weber. Dr. Scherson, I have the same question for 
you regarding how to achieve those potential breakthroughs in 
electrochemistry.
    Dr. Scherson. Yes, well, certain aspects of my answer will 
follow what Professor Lewis was referring to. In a battery we 
have two electrodes and we have an electrolyte in between. Each 
of these components needs individual attention. Solving 2/3 of 
the problem does not solve the problem of coming up with a 
viable device. So it's absolutely essential to engage people 
with knowledge in physics so that we can understand how ions 
migrate through lattices. We need to involve our chemists that 
are going to give us insight into how ions solvate and migrate 
through the electrolyte and engineers that will have to teach 
us how to assemble the device, and finally, I guess that 
technoeconomic models are also necessary in order to decide 
whether certain technology is viable or not in the marketplace.
    Chairman Weber. I just want to know if you can explain that 
to my wife so she can keep her cell phone battery charged more 
often. If you could put that in layman's language for her, 
that'd be helpful.
    So let me follow up then for you both. So we've been 
scrutinizing the entire DOE research and development portfolio 
in this Congress, and I've never heard of EERE supporting any 
R&D in these areas. What are the research challenges to enable 
artificial photosynthesis in multivalent systems to transition 
into that technology that is ready for the private sector to 
commercialize? And could DOE's EERE applied research programs 
support that work, Dr. Lewis?
    Dr. Lewis. Thank you. That's a very important question and 
also programmatic aspects. EERE does support work on not solar 
fuels but related systems where there's corporate activity such 
as electrolyzers or fuel cells. That being said, they can 
leverage that investment they've already made where there's 
common ground because a solar fuel system just works as a fuel 
cell in reverse.
    So the same kind of structures, the same kind of 
implementation that EERE is learning from and developing could 
well be applied and should be applied in translational research 
to build systems like the bubble wrap vision that we might have 
for a solar fuels generator to take the pieces that are 
developed by the Office of Science and to constrain them into 
the useful sets that are in a system that could be deployed. 
That would be very important as a role for EERE.
    Chairman Weber. Dr. Scherson?
    Dr. Scherson. Yes. In fact, the same role would apply to 
the field of batteries. There are situations where developments 
are made and people get excited and then they go and try to 
make a viable device, and to find that certain questions were 
not answered properly. And so I think that the involvement of 
the government of the basic research becomes essential in order 
to migrate from the very basic research into industry. This is 
a role that EERE should play.
    Chairman Weber. Thank you. I'm out of time. I'm now going 
to recognize the Ranking Member here with us, Dr. Mark Veasey.
    Mr. Veasey. Well, thank you very much.
    And I wanted to ask some questions about energy storage for 
Dr. Hallinan and Dr. Scherson. I know that you're both working 
on innovations in electrical energy storage. I wanted to know 
if you could speak about your research and how it may lead to 
breakthroughs in developing new battery technologies.
    Dr. Scherson. If I may start?
    Mr. Veasey. Yes, please.
    Dr. Scherson. Well, the components of a battery are 
numerous. In fact, very simply, if you take a cathode of the 
lithium-ion battery that powers your cell phone, you will find 
that it is composed of little tiny particles that are all 
electrically interconnected by yet another component, and so 
the key is to be able to isolate each of the components of the 
battery and try to understand their properties, their intrinsic 
properties. So in my research group, we are looking at single 
particles of a cathode or anode and trying to investigate the 
dynamics, for example, of ion insertion into the materials. 
That's important when you charge or discharge. We are taking 
particles of the anode and trying to understand how the anode 
reacts with the electrolyte, forming a passive film that is 
required for the operation of the battery.
    So in essence, we need to understand the individual 
components and then understand how the assembly of these 
components will make a device that is going to fulfill the 
purposes for which it was intended.
    Mr. Veasey. Another question I wanted to ask you was about 
energy storage. As we know, there are many challenges that we 
face when it comes to energy storage in the area of wind and 
solar, particularly if we want to be able to provide a certain 
amount for our energy grid and portfolio. Do you have--anything 
else of--just about the challenges that may remain that we may 
not be aware of?
    And then also I wanted to ask you, do you think that if 
we're able to overcome some of the storage challenges and 
issues, will that allow us to be able to even use wind more 
efficiently? I don't know if you've ever been to a wind farm in 
Texas. We provide a lot of wind in the State of Texas, but they 
do take up quite a bit of space to get the wind from West Texas 
into the Dallas-Fort Worth metroplex, for instance. You're 
talking acres and acres and acres. If you could just briefly 
touch on that, I definitely would appreciate it.
    Dr. Scherson. Well, in fact, I have not been in Texas at 
those facilities, but I've been in Spain where there is a heavy 
use of wind. So the trick here is to convert the wind energy 
into, let's say, another kind of energy, so one way is to store 
it electricity. So you may ask what kind of devices are there 
available in order to store this electricity for use when the 
wind is not blowing?
    So there are batteries, right? There are also some other 
devices that are called redox flow batteries, which is like a 
battery but then you have these enormous amounts of liquid that 
get passed through the electrodes and then you can store power 
in that fashion. In fact, the Swiss Government is investing 
lots of money in implementing such an approach.
    The other possibility is to convert that electrical energy 
into chemicals that can be stored and then used at a later 
time.
    So just to give you an idea of the numbers. In your car you 
have the lead acid battery, and that will give you, let's say, 
100 units. So if you were going to move the technology into 
lithium-ion, then you will get 250 units. So if we can 
transition that into magnesium, which is one of the divalent 
metals that is being explored at JCESR, then you can increase 
that number up to 700.
    And then lastly, if you go to the limit you could have 
three electrons per atom of charge storage, you can get easily 
to 1,000. So you can see by transitioning from today's 
technology with lead acid, we can get about an order of 
magnitude more efficient energy storage by moving into these 
multivalent ion systems.
    Mr. Hallinan. Could I make a comment?
    So there are other ways also to increase the capacity of 
energy we can store. And as has been mentioned, if we increase 
the voltage of--the energy that's stored is the product of the 
capacity times the voltage. So we can--to increase the energy, 
we can increase the capacity, which we can do by going to 
multivalent ions or going to other electrochemistries. Lithium 
air batteries is this holy grail that takes us an order of 
magnitude higher in battery capacity energy storage. But then 
we can also just go to higher voltage, make the voltage of the 
battery higher.
    And in order to do those things, in addition to moving 
electrons through the electrodes, we also need to move ions 
from one electrode to the other, and that's where polymer 
electrolytes come into play because for--especially for lithium 
air batteries, we--it's essential to have a solid electrolyte, 
that a liquid electrolyte is not even a possibility for these 
advanced technologies.
    But we need to address the slow dynamics of polymer 
electrolytes, and so I think if we can really make that 
breakthrough, we are really looking at either--between using 
multivalent ions and using new cathode chemistries, we're 
looking at an order of magnitude or even more increase in 
energy density in theory. I mean, it is a challenging problem, 
but it's theoretically possible.
    Mr. Veasey. Thank you, Mr. Speaker. I yield back.
    Chairman Weber. Well, not only did you get a promotion to 
doctor, I got a promotion to speaker.
    Mr. Veasey. That's right.
    Chairman Weber. So the Chair now recognizes Mr. Brooks of 
Alabama.
    Mr. Brooks. Thank you, Mr. Speaker.
    Dr. Lewis, you pointed out that your lab has demonstrated a 
functional solar fuel system. Can you elaborate on the 
fundamental chemistry and materials research needed to discover 
new molecules and materials and why that research is needed if 
you have already demonstrated at least one version of a solar 
fuel system?
    Dr. Lewis. Certainly. Thank you for that question. 
Demonstrating one version of a solar fuel system is, in our 
view, like the early flight of a Wright brother is we can get 
off the ground that we can't fly very far. We need pieces, we 
need materials that are as to an aircraft a jet engine is to 
that Wright brother's airplane in the first place.
    We need to simplify the system so that it doesn't have many 
so-called junctions. We need to get catalysts that don't use 
precious expensive metals like platinum or iridium. We've made 
lots of progress there, but we still have a ways to go in order 
to get all of these pieces and we need all out of easily 
manufacturable simple things that you or I can do in our garage 
as opposed to having to have very esoteric laboratory 
preparations of them using expensive materials. And they also 
all have to be compatible with each other and last for 20 
years, not 20 minutes. So we've demonstrated it's possible, but 
we still need to do a lot of fundamental materials science and 
chemistry development to get it to be practical.
    Mr. Brooks. Okay. A follow-up in that regard, has the 
Department of Energy's Energy Efficiency and Renewable Energy 
Office provided adequate support for transitional or early-
stage research and development for artificial photosynthesis or 
for that matter a functional solar fuel system?
    Dr. Lewis. To my knowledge, EERE has not had a significant 
program yet in solar fuels. They do have related programs in 
consuming that fuel, and there are lessons to be learned. They 
should be trying out systems like our potential concept of 
bubble wrap that would concentrate the sunlight just like the 
bubble wrap we receive onto small areas minimizing the amount 
of material that we would need, and letting us use more costly 
material.
    There are other designs that are much more amenable to 
reduction to practice that are beyond the Office of Science's 
typical charter that would logically be built in EERE's domain 
so that we can solve problems that are problems and not solve 
that are not problems, learning from experience in a 
synergistic effort.
    Mr. Brooks. All right. This next question will be for each 
of you, and we'll start with Dr. Hallinan and move to my left, 
your right. How is the United States faring against 
international competition in foundational energy research? And 
each of you have talked about different subject matter, so if 
we could, your answer be directed to your areas of expertise. 
Dr. Hallinan?
    Mr. Hallinan. Thank you. So these upgrades--the proposal--
the upgrade proposals, they address mainly being able to look 
at complex materials in much smaller length scales and much 
faster times. And this is a new breakthrough in synchrotron 
science. It's already being implemented in Sweden, and there 
are plans to implement it in Brazil. So in that regard I would 
say regarding the upgrade to our synchrotron light sources, the 
United States is a little bit behind.
    I think that really to look at polymer dynamics at the 
scale and at the rate that we need to, which is smaller than we 
can do now and is faster than we can do with our existing 
facility, so I do think the upgrades are important in addition 
to maintaining our competitiveness from a research standpoint.
    Mr. Brooks. Thank you.
    Dr. Broholm. In my area of quantum materials, I think that 
the United States has a very lively program, and it is--has 
been characterized I think now by a stronger component of 
materials synthesis, which is a really key part of development 
of quantum materials. I think comparing to other developed 
countries sometimes one sees that looking, for example, to 
Europe a more kind of organized approach to some of these 
topics, but I think sometimes it's difficult to say whether the 
organizer as opposed to the thousand points of light is the 
better approach. I think things are going pretty well.
    If I could say about the facility upgrades, maybe we'll 
return to it later, but the--in terms of the neutron 
facilities, the spallation source is presently the world's most 
intense source of neutrons, pulse neutrons, but the European 
community is now building a spallation source in--also in 
Sweden, which will be a 5 megawatt source. And there's quite 
some concern in the--in--among scientists who use neutron 
scattering that this facility will in fact surpass the 
spallation neutron source, and we believe that an upgrade is 
very important in order to sustain leadership in that area.
    Mr. Brooks. I don't know if the Chair will permit, but I've 
got two more witnesses. Can they respond?
    Chairman Weber. Yes.
    Mr. Brooks. Dr. Scherson?
    Dr. Scherson. Thank you. Yes, the only example that comes 
to mind that I'm fairly acquainted with is in Japan where they 
have tried to emulate the EFRCs and hubs programs that DOE is 
supporting in this country. The amount of financial support is 
lower than the one that the government here provides for these 
multidisciplinary centers.
    One difference that perhaps may be considered is the 
integration of industry into the program. So now you have the 
beginning from the basic knowledge to the end user, and that 
has proven to be of value so that by going from one extreme to 
the other one, this conversation makes it possible to take the 
good ideas and then migrate them very quickly into the 
marketplace.
    Mr. Brooks. Dr. Lewis?
    Dr. Lewis. Thank you. Two points to speak to on this, one 
is I did mention that in solar fuels there are burgeoning 
efforts now, very substantial, in Korea, Japan, China, Sweden, 
Germany, and the EU, and I'd say either individually or 
collectively they're definitely on par with what we are doing 
in the United States.
    The second perspective is I'm the editor-in-chief of the 
preeminent journal in this field, Energy and Environmental 
Science, and that's a global journal. It's turning down 90 
percent of the articles that are submitted so it's very 
selective, and over half of those articles that appear in this 
field are from China, Japan, Korea, and our competition.
    We still have leadership, intellectual horsepower, but I 
think we're at a crossroads here, and we need to really 
understand that there are other nations who see opportunity for 
the scientific effort, and we have to make a decision as to 
whether or not we're going to continue to lead, and I hope 
that's a positive decision.
    Mr. Brooks. Thank you for your insight.
    Mr. Chair--Chairman, thank you for the additional time.
    Chairman Weber. Thank you. The Chair now recognizes the 
Ranking Member.
    Mr. Grayson. Thank you. Dr. Lewis, I want to ask you some 
questions about something that sort of sounds like an oxymoron, 
which is artificial biological photosynthesis. I realize that 
your own specialty is physical analogs to photosynthesis, but 
it sounds like you're knowledgeable about biological 
alternatives as well. So I have a few questions for you.
    Biology is the most fruitful means of producing ends, 
concrete results that we know of. We can do far more with 
biology--or biology does far more for itself than we see 
through physical processes or chemical processes. The fact that 
I'm looking at you right now is an example of that. Biology 
created the eye and the brain. That process is what comes 
through the eye, both remarkable accomplishments that we have 
no physical or chemical analog for.
    So given that fact, is it reasonable to be hopeful that we 
can come up with artificial photosynthesis based upon biology 
itself?
    Dr. Lewis. Certainly it's reasonable to be hopeful. There 
are various methods by which this is practiced. One would be to 
de-bottleneck photosynthesis, which is fundamentally 
inefficient. The plant should be black, not green, to get all 
the colors of the spectrum. It actually saturates its 
productivity the tenth the light intensity of the sun to 
protect itself from radical damage in the shade of the canopy.
    There are lots of molecular links in biology that 
deregulate systems so that they can be stable and reproduce and 
do other things that a science approach to un-bottlenecking and 
making plants more optimal for energy conversion as opposed to 
everything else could be very fruitful.
    There's also people and scientists that are trying to take 
biological enzymes, pull them out of the biological system, and 
couple them to the manmade systems. And so you can see how a 
crosscutting effort that would try to take the best of both 
worlds should also be explored. And this would involve a 
strategic collaboration between many different parts of our 
biological, physical, and chemical research enterprise to find 
the best of all worlds in this end use.
    Mr. Grayson. All right. So one possibility is what you 
refer to as un-bottlenecking. What are some of the possible 
approaches there? Are you referring to genetic engineering? Are 
you referring to some kind of forced evolution? What are people 
actually doing on this?
    Dr. Lewis. Right. They're both. Traditionally, we called it 
breeding where we breed crops----
    Mr. Grayson. Right.
    Dr. Lewis. --for fitness, but it would be through genetic 
engineering and directed evolution toward--the molecular part 
is the coupling between Photosystem I and Photosystem II. That 
has to move a molecule, a quinone, and that's a slow process. 
And so if you could instead introduce a wire, a molecular wire 
that would move the electrons without moving the molecule, you 
could de-bottleneck inherent photosynthesis, and there's lots 
of interest in that, but probably should have much more 
attention at the research level.
    Mr. Grayson. Well, that's an interesting question itself. 
Do you have any information about, let's say, Exxon doing 
research like this? Are there private enterprise efforts that 
are being conducted along these lines, or is it being left to 
the government to try to develop this?
    Dr. Lewis. My knowledge is that there are enterprises 
thinking about manipulating algae, for instance, but not so 
much in the private sector and the energy companies for 
certain. And I think it is now left to the government as very 
early stage maybe appropriately because it is a complex system, 
and we still have to do research. It's not just taking tools 
that we understand and engineering them, but it's somewhere in 
that mix.
    Mr. Grayson. Well, given the upside here, the fact that 
you're basically talking about being able to create an 
artificial fuel, transportation fuel, artificial oil, maybe 
artificial natural gas, and that has an enormous effect on the 
economy. That's roughly ten percent of the entire world economy 
right now. Given the upside here, why do you think that there 
isn't more effort in the private sector to accomplish this?
    Dr. Lewis. I think it's pretty simple. The rate of return 
and the capital needed to invest in energy systems is typically 
10 to 15 years, and when you're reporting to your stockholders 
every quarter, you can't justify a long-term program to return 
capital when you have to report everything every quarter to 
your stockholders.
    Mr. Grayson. So in the short time that we have left, can 
you tell us specific examples of artificial biological 
photosynthesis that are being conducted right now or at least 
efforts that are being made in that direction?
    Dr. Lewis. Absolutely. There are laboratory experiments 
that have taken enzymes that feed on hydrogen that then convert 
them with carbon dioxide into selective liquid fuels like 
isopropanol. And so we have a recent demonstration of that, in 
fact, out of Harvard that has shown that this is possible. 
That's an important first advance. We still have to then reckon 
with how long will those enzymes last. Will they be robust 
enough to be put into a system? How can we make them scaled up 
and cheap enough to deploy at large-scale? But there is this 
strategy of--at the research level taking the best pieces from 
wherever they are and then combining them into the best system, 
and that's certainly a good approach.
    Mr. Grayson. Last question, is there any experiment so far 
to date regarding artificial biological photosynthesis that has 
actually resulted in the recovery of a fuel that had more 
energy content than what you put into it, what we call in the--
in an analog of fusion we'd call that ignition.
    Dr. Lewis. Exactly.
    Mr. Grayson. So is there something like that that exists 
already for artificial biological photosynthesis?
    Dr. Lewis. Probably not yet. Maybe, maybe in some limited 
circumstances, but of course that's the goal is to get the 
energy payback more than the system energy put in, but that's 
certainly where we want to be.
    Mr. Grayson. All right. Thank you very much. I yield.
    Chairman Weber. I'm going to follow up on that, Dr. Lewis, 
if I can. That's a fascinating conversation. You said plants 
need to be black instead of green. Somebody earlier said they 
pick up the red rays and the blue rays and this is Democrat and 
Republican. It's bipartisan, you know.
    And so in following up with your discussion with my good 
friend Mr. Grayson, you're talking about algae that had a--a 
plant should be black and then you said that you needed a wire 
to like move the electrons in some of those plants? Are you 
seeing articles about this particular process in this very 
prestigious journal known as the Energy and Environmental 
Science? I happen to know the editor. Right.
    Dr. Lewis. Yes, I'm seeing them, and I don't have time to 
read every article, but----
    Chairman Weber. Okay.
    Dr. Lewis. --we do see them in many constructs. The wire 
isn't a wire like we think of a copper wire with insulation. 
It's at the molecular scale. It's molecules that----
    Chairman Weber. Something that moves the----
    Dr. Lewis. --electrons----
    Chairman Weber. Right.
    Dr. Lewis. --between these sites in a way the biological 
system wouldn't do itself. And you really do want a solar 
converter to look black to the human eye so that it does have a 
red component and a blue component and therefore harvests all 
of the sunlight. Plants are not optimal for energy conversion 
machines because they look green. That means that they're 
wasting some photons. They had other evolutionary constraints 
and design that when you build an aircraft you don't make it 
out of feathers if you want it to fly faster. You're inspired 
by that, but we know we can do better.
    Chairman Weber. Right. And the landings are brutal.
    Dr. Lewis. The landings are brutal.
    Chairman Weber. Yes. All right. Thank you. I'm going to--I 
yield to the gentleman from California, Mr. Knight.
    Mr. Knight. Well, you only get one landing if you make them 
out of feathers.
    Dr. Lewis, thanks for coming. I appreciate you being here. 
You mentioned that artificial photosynthesis could benefit from 
modeling and simulation using high-performance computation 
systems. Is that something that the research community has 
begun to discuss with DOE?
    Dr. Lewis. I believe so but not in such an organized 
fashion as to establish a separate program for high-performance 
computing applied only to this problem. But there are specific 
examples. I'll give you three briefly. We discovered a nickel 
gallium alloy just recently in our laboratory that selectively 
takes energy-efficient carbon dioxide and makes interesting 
carbon-coupled liquid and gaseous products. That was predicted 
by theory before we did it experimentally.
    Now, it turns out that the theory got the energy efficiency 
right but it got the carbon products wrong. They predicted 
methanol. Well, that's because the theory was done in an ideal 
surface with perfect atoms, and the real sample we made had all 
sorts of nooks and crannies and edges that then we have to 
iterate back to tell the theorists, well, now you've got to 
predict what the real-world samples are. But they got it close 
enough to tell us where to look.
    The second point is that theory has predicted out of 19,000 
metal oxides, 200 that might be stable light absorbers under 
our conditions. We don't yet know how many of them can made--
can be made outside of the computer and exist, but now we're 
looking there to try to have a guide from high-performance 
computation into where the experimental work should begun and 
then refine it. So that would be the optimal way in my view to 
not have the world just abstracted in computer. We have to 
build it, we have to make it, and then we have to find out 
where the theory is right and wrong and then iterate back and 
forth until we get to where we need to be.
    Mr. Knight. Just like any test or experiment, you've got to 
have a theory and then you've got to actually see the ability 
to see it practically work.
    I want to go to Dr. Hallinan about the batteries. And Mr. 
Veasey was talking about Texas. Well, in California we have 
quite a bit of photovoltaics and solar and wind and all kinds 
of renewable energy products there in the Mojave Desert. Our 
biggest problem is battery storage. Our biggest problem is the 
wind is not always blowing and the sun is not always shining. 
And so if we want to move to our new RPS, which is our 
renewable portfolio standard of 50 and then 60 and 70 percent, 
we might get to that line where we can't go any higher. We've 
got to burn something because, like I said, the wind's not 
blowing and the sun's not shining, so we've got to burn 
something to keep the lights on.
    At what point or how close do you think we are--and this 
might be a question for everyone. At what point do think we are 
that we can store something that comes from an 1,100-acre field 
out in the Mojave Desert that is producing a huge amount of 
energy but we are burning that--or we are using that energy 
very quickly, instantaneously?
    Mr. Hallinan. Sure. So that's a--it's a challenging 
problem, and I think there are a number of constraints that we 
face. So one is we don't want to be spending large amounts of 
money to make these batteries just to store this energy for a 
short period of time, right? So we have this cost constraint, 
but then we also want these batteries to last a long time. We 
don't want to have to be replacing them regularly. We also need 
them to charge and discharge at a rate commensurate with either 
the production or the consumption of the energy.
    And so when you look at batteries, there's a very wide 
array of different types of--we call them battery chemistries. 
Lithium-ion are very good for portable electronic devices, and 
they are now being used in electric vehicles. Nickel metal 
hydride are used in hybrid vehicles, so there are many 
different chemistries.
    I think what Dr. Scherson mentioned earlier about these 
redox flow batteries, they seem to be the most promising for 
what I would call stationary storage. So we're--if we don't 
need to move battery around, we really don't care how much it 
weighs or how large it is to some limit. We care mainly about 
cost and satisfying the other needs of storage.
    And so for--I think for grid storage, really these flow 
batteries--and the reason they're so interesting is once you've 
designed the electrodes, then if you need to scale them up, you 
just make a bigger tank of your liquid that you're going to 
flow to the battery. Now, I would say, you know, they're still 
at the research stage, but they seem the most promising from 
what I've seen.
    Mr. Knight. So I'm going to--if the Chair will allow me 
just to ask one more question. I'm going to put this back to 
Dr. Lewis because I think he understands this. What we go 
through in California, what we go through in Texas, what we go 
through in some of the states is the issue is not--well, the 
land is an issue, but we have a lot of land that we can put 
these thousand-acre fields out there. And it does become an 
issue more politically than for the science community, but that 
will become a problem.
    If we cannot store this energy, if we cannot use this 
energy at a later time, then we might be on the wrong 
technology. And I say that just personally. We might want to 
look at something else because if we cannot store this, we are 
going to be using so much of our land that I think that it 
might be a problem.
    And the second question--I'll give this to you, too--is 
we've got car companies coming out and they're doing cars that 
can do about 225 miles on a charge and exactly what Dr. 
Hallinan said, we would change out the batteries at changing 
stations instead of filling up your gas tank with gasoline, and 
that could be a problem because now we're producing all of 
these batteries. We're going to have a huge amount of batteries 
if we've got 50 million cars on the road and we have to have 
100 million batteries out there just changing stations. I think 
that that's a problem with this technology. But it could just 
be me.
    Dr. Lewis. I'll at least try to address the first question. 
Storage is in my view--I agree with you--the number one problem 
to think about actually at scale deploying intermittent 
renewable sources. We have technologies that are reasonable at 
solar and wind, but if we can't store, we can't have power 
after 4:00. It's pretty simple.
    We should do this broadly. You should think about ramping 
up and down nuclear power plants fast in certain designs, about 
natural gas-fired power plants, about demand management, about 
making fuel directly from the sun, about batteries. There are 
probably lots of ways to think about this.
    Storage of electricity has been realized as a gap since 
Thomas Edison noticed it in 1931, and we have to solve this 
problem. This is where, I think, a broad program not just in 
batteries but in all sorts of technology options that can help 
us meet load in the face of a dynamically changing energy 
market are critically important.
    With respect to the battery recycling, that solves one 
problem and introduces another. It solves a problem in that 
there won't be a rapid recharge of a battery by electricity for 
a very long time because all batteries have what's called an 
internal resistance that prevents them from shorting. If you 
try to charge them up, you dissipate so much heat through that 
resistor that you would boil all the liquid in your car if you 
tried to do that in five minutes.
    So instead, you swap a battery out with a previously 
charged battery, and the problem of course is now you have at 
least twice as many batteries on your hand you have to move 
around. This again points to what would be a dream solution of 
if instead you could make liquid fuel and store the energy that 
way, then you could convert that electricity into stored fuel 
and we know how to handle that.
    So there are lots of things we should be thinking about. 
These are incredibly important problems and we need to do a lot 
more research in order to try to make them into reality.
    Mr. Knight. Thank you very much. Thank you, Mr. Chair, for 
the indulgence.
    Chairman Weber. Thank you for yielding back.
    The gentleman from--is it Illinois--Mr. Lipinski is going 
to be recognized for five minutes as soon as he's ready.
    Mr. Lipinski. Thank you very much, Mr. Chairman. Thank you 
very much for stalling there for a second. I was at another 
hearing. I just finished my questioning there, so I thank the 
witnesses for being here today.
    And this may be a little bit of a repeat and that's what 
we're trying to avoid here, but I wanted to make sure that I 
directly had you address some of these things. Dr. Hallinan, 
the Basic Energy Sciences Advisory Committee, BESAC, recently 
released a report detailing which BES upgrade proposals should 
be prioritized, and I was pleased that BESAC recommended 
beginning construction on the Advanced Photon Source at Argonne 
National Lab, which is located in my district.
    It's my understanding that your research has relied on APS, 
so could you talk a bit about your work that uses the APS and 
how upgrading it would advance both your research in the field 
of high-energy light source research in general?
    Mr. Hallinan. Sure. So the electron beam at APS is--and 
actually at all of our synchrotron light sources is actually 
this long, wide beam--sorry, not the electron beam, the light--
the x-rays themselves. And so if we want to do some of these 
advanced experiments, some measuring dynamics, we're 
essentially taking movies, very rapid movies, and we need to 
have a point source. And so what they do now is they just block 
off the vast majority of the light that's generated by these 
light sources. Well, what the upgrades will enable is actually 
in--so this is not--the actual upgrades is not my area of 
expertise, so I can't actually tell you a lot about the 
technical details of the science. But my--but as I understand 
it, they're able to shrink that x-ray down to a point without 
having to block lots of it, and so they're increasing the--what 
we call the brightness by 10 to 100, maybe even more times what 
it is now.
    And that's what enables us then to--with this brighter beam 
we can basically take faster frames of the movie, of the 
dynamics of these structured materials whether--and it doesn't 
only need to be applied to polymers. I don't want to give you 
that impression. That's--my research uses polymers. And the 
theory predicts that there are these segmental motions that are 
on very small length scales and are very rapid that we want to 
be able to look at experimentally to verify that the theory is 
predicting correctly. And then if we understand the 
fundamentals from this theoretical and experimental standpoint, 
then we may be able to design faster or better transporting 
polymer electrolytes.
    I think the impact is going to be much broader than just 
polymer electrolytes for batteries. I mean, there are people 
doing research in biological systems looking at DNA, looking at 
ribosomes. There have been Nobel Prize--the Nobel Prize in 
chemistry in 2009 apparently was awarded for work at the APS.
    And--but--so what is it--essentially what it's going to 
allow us to do is look at faster and smaller with all the 
different capabilities. So I think I answered your question.
    Mr. Lipinski. Yes. What about the--in general the impact on 
international competitiveness for the U.S. to do this 
upgrading?
    Mr. Hallinan. I think it's essential. I mean, this is a new 
breakthrough in synchrotron science, and it's really going to 
push the limits of what we can do--of the research questions 
that--the scientific questions that we can answer. Any 
scientific questions, I think, are important for several of our 
technological challenges of the country. And we don't--you 
know, I mentioned earlier that the personnel, the people behind 
the science, it's like if you gave a vehicle to a monkey, he 
wouldn't really make much of it, and so these beam line 
scientists are also crucial, and so if we don't upgrade, we're 
going to start losing some of our really great talent to these 
other countries would be my concern.
    Mr. Lipinski. Thank you. One other question I want to throw 
out there, I know you talked already about energy storage. 
JCESR is also centered at Argonne. Is the Energy Innovation Hub 
model the best way to pursue this type of research and other 
research? I just want to get a reaction to that if that's the 
best way to do this and to continue on with other research 
challenges that we face?
    Dr. Scherson. Well, I'm fairly well-acquainted with JCESR. 
I belong to their advisory board. And this is some sort of a 
large-scale experiment in trying to do the basic science and 
then migrate all the basic science through all the steps that 
are required to put the final product out the door of 
commercial companies that may want to take that technology and 
bring it to the marketplace.
    It is a remarkable thing that's working very well from what 
I can tell. It encompasses activities from the chemical 
engineering but it goes into the design of the system to the 
very basic teaching so far what one particle can do when the 
electrode gets charged and discharged. So it's the entire 
spectrum of activity that is concentrated into one organization 
under one head.
    Mr. Lipinski. My time is expired so I will yield back. 
Thank you.
    Chairman Weber. Thank you, Mr. Lipinski.
    The Chair now recognizes Mark Takano from California.
    Mr. Takano. Well, I'd like to thank the Chairman of the 
Energy Subcommittee for allowing me to be here today due to my 
specific interest in this sector, so I really appreciate that, 
Mr. Chairman.
    I am co-Chair of the Battery Energy Storage Caucus and have 
a particular interest in energy storage and what we can do as 
policymakers to support and spur innovation in this industry.
    California is making large investments in energy storage, 
and in my district at the University of California Riverside at 
the Center for Environmental Research and Technology they are 
working on the local--they're working with the local utility to 
integrate battery storage, as well as combining it with 
electric transportation.
    We have heard from scientists and policymakers alike that 
there's often a false boundary between basic and applied 
science. To some, supporting basic research is an important 
role of government, while applied research should be left to 
the private sector. Yet this idea that there is a line that 
neatly divides the two separate levels of research is not 
realistic, and it goes against our general understanding of 
scientific discovery and innovation. Would you agree with this 
characterization, this last characterization? And I want to ask 
that question first and if you can briefly just address that, 
each one of you.
    Dr. Lewis. Certainly. To efficiently utilize our researches 
and our capital, our intellectual capital, we have to focus on 
the seamless transition of end use. We don't want to be wasting 
our time making discoveries of materials that end up when 
they're combined into a battery are explosive and unsafe. We 
don't want to be doing that with solar fuels generators either.
    And the only way you can do that is if you actually build a 
system and then understand from the system-level what the 
constraints are on the materials that go into that system, 
whether it's a solar fuels generator or a battery or a flywheel 
or any other type of consumer or industrial product.
    So to the extent that the use-inspired fundamental research 
has an outlet into practical implementation, there should be no 
boundary. On the other hand, there is a discussion about 
whether or not taking it further than a demonstration and 
constraining it is the role best served by the government or is 
that for all best handed off to private industry? And I think 
that boundary is something that is beyond where the technical 
expertise--that's more a policy.
    Mr. Takano. Okay. Great. Dr. Scherson?
    Dr. Scherson. Yes. I will just simply complement the answer 
given by Nate. I just learned that about ten percent of the 
cost of an actual battery goes into materials, 90 percent into 
manufacturing. So, you know, we have to be able to bridge the 
gap between what we regard as fundamental research and applied 
research. I'm afraid that companies may not want to take the 
risk of trying to take something from the laboratory and try to 
produce something under their cost into a final product. So in 
my view, JCESR has managed to be able to bridge this gap in 
trying to make these boundaries disappear.
    Mr. Takano. Great. Dr. Broholm?
    Dr. Broholm. I think the--we--it is important to focus on 
the key role that the government has in supporting discovery-
driven research, and let me give an example, which is that in 
the pursuit of superconducting material that might in fact 
solve some of these storage and transmission problems that we 
have been talking about, there comes a time when perhaps one 
does need to look at a material which superconducts at 100 
millikelvin. And this material may in fact provide the 
intellectual breakthrough that allows you to then compose a 
material that will become a practical superconductor.
    So I would--so on the other hand I think that the cross-
fertilization of the motivation from discovery-driven research 
to use-inspired research is very important such that those who 
are working in the discovery realm need to have the ability to 
view some of the challenges that exist in the real world as 
well. So this artificial barrier is in fact very unfortunate if 
it exists. On the other hand, we have to really remember to 
also support the discovery-driven part of it, not to have it 
cast aside for not being practical.
    Mr. Takano. Yes.
    Mr. Hallinan. So, yes, and I'd like to just emphasize that 
with a quick example, that there needs to be a balance between 
supporting these for-profit entities and basic science. And so 
I think a great example is the discovery of the MRI, which is 
widely used in the medical industry now, was originally 
completely driven only by a fundamental science question. There 
was no perceived application of that research.
    And so I think, you know, I just want to--I would like to 
moderate the responses with the statement that I think it 
shouldn't--while taking things to market is extremely 
important, it shouldn't be at the expense of basic science.
    Mr. Takano. Might I ask just a follow-up?
    Chairman Weber. Yes.
    Mr. Takano. Thank you, Mr. Chairman.
    The work supported through the Basic Energy Sciences 
program, would you agree that it's a major example of how there 
is really no clear boundary between basic and applied science 
even if basic is in its title?
    Dr. Lewis. I think that's a fair characterization in the 
sense that we don't know what the applications will be of many 
of the materials made or fundamental concepts that are 
supported by basic energy sciences will end up specifically 
into an energy system in a consumer or in a generator's kind of 
infrastructure. So that's foundational research, and its 
outcome and where it goes should be unconstrained.
    There are separate parts that are use-inspired that I think 
should be properly constrained into things that could be 
implemented and are devoted to, say, using elements that are 
not so expensive or so rare that you could never actually use 
them at scale for energy applications. There are still 
fundamental research questions, but it's constrained into don't 
give me an answer on a material that I can't possibly think 
about ever using. Give me an answer that's relevant to ones 
that I could think of using. And I think they're both important 
to founder.
    Mr. Takano. Dr. Scherson?
    Dr. Scherson. If I could address the importance of 
theoretical research. Nowadays, we have the ability of throwing 
at a computer all the elements in the periodic table and begin 
to ask questions. And we said what kinds of materials could 
possibly be designed in the computer that are going to end up 
giving us the ideal material for an actual application? And, 
you know, I have been many times and I'm sure that my 
colleagues are the same that the computer produces something 
that we never thought of. And there is a case at the moment of 
the material discovered by the computer that is very good in 
terms of allowing magnesium two plus to migrate through the 
cathode.
    And so people at JCESR are contacting one laboratory in the 
world which happens to have that capability, and then you can 
then validate what the computer predicted and then do the 
experiment to find out whether that is a good one or not. So 
this interchange between theory and experiment is becoming to 
be crucial in order to discover new and more efficient 
materials for all sorts of applications.
    Mr. Takano. Fascinating. Dr. Broholm?
    Dr. Broholm. Yes, I--let me return to a topic that I opened 
with, which was the nature of AT&T Bell Labs or Bell 
Laboratories, which was a very interesting institution where 
you have this connection between truly fundamental science and 
very specific applications. And so I think I actually worked at 
a time and I think there was a tremendous inspiration in fact 
even though we were working on topics that were truly 
discovery-driven science, we had the opportunity to talk to 
individuals who are working in a very applied end of it. And 
this actually--it can become a motivating factor.
    And so I think basic energy sciences has the opportunity to 
be the place where these strands of research actually connect 
to each other, both the fundamental and the applied side.
    Mr. Takano. Dr. Hallinan?
    Mr. Hallinan. Yes, I would agree. I think that the 
questions that we need to answer are well-defined by the 
applied side, and then we can approach them from a fundamental 
perspective. So, for example, as an engineer, the reason that 
I'm interested in studying polymer electrolytes is that I 
recognize the massive energy efficiency gains we can achieve by 
transitioning to electric vehicles from conventional internal 
combustion vehicles, for example. But my research does not 
cover trying to put these batteries into a car. That's for 
someone else to do.
    So I think that I agree with you that there is not really a 
clear line between basic and applied, and that we get the 
important questions from the applied side and then we figure 
out how to answer them, I think, from the basic side.
    Mr. Takano. Thank you, Mr. Chairman. I appreciate the extra 
time.
    Chairman Weber. You're welcome. Doctor--the Chair 
recognizes himself for five minutes for a couple more 
questions.
    Dr. Broholm, could you give us a general sense of how far 
we are from being able to--I know I'm asking you to predict the 
future now. How far are we from being able to really develop 
useful quantum computing systems and explain the materials 
challenges?
    Dr. Broholm. So there are many different forms of quantum 
computing that are now being pursued, and I think that already 
shows you that we don't know now which approach is actually 
going to become the one that functions or which approach is--
the general challenge that one is facing there is that it is 
necessary in the quantum computer to allow a physical quantity 
such as a nucleus in or a photon or a patch of a 
superconducting material to respond quantum mechanically to 
specific conditions that are imposed.
    And it's important that the wave mechanics associated with 
quantum physics can unfold without loss of coherence until the 
quantum computation has actually been completed. And so having 
a quantum material that can respond quantum mechanically for a 
sufficient period of time is actually a first step towards 
quantum--to having a quantum computer.
    And as I said, there are a number of different materials, 
platforms that are now being explored, and I would say that I'm 
optimistic because of the excitement that surrounds the topic 
and the talent that's being applied to it at this time. But I 
think the timescale is--one would be--it's a folly to try to 
really pin down a timescale on that, and I think we should be 
thinking of that as a vision that needs a sustained level of 
research of the type that I think predominantly the government 
will be able to support.
    Chairman Weber. I think you just said you don't know.
    Dr. Broholm. I'll take that.
    Chairman Weber. Okay. Thank you, Doctor. And I want to 
follow up with that. What role can the DOE research program in 
BES and even in the ASCR program within the Office of Science 
play in advancing this research?
    Dr. Broholm. As you pointed out, this is really early 
stages, and it's very important to take that approach. And so I 
think we're talking about the development of new classes of 
materials, quantum materials that sustain quantum coherence for 
sufficient timescales to allow quantum computing. And so one of 
the key approaches that we need to take is to combine the 
theory of materials with the synthesis of materials and the 
ability to measure those materials in order to examine the 
viability of different class of materials to function in a 
quantum computing system.
    And if I may, I would say that one of the key roles that I 
see of Department of Energy in basic energy sciences is the 
provision of world-class facilities that can actually probe the 
structure and the dynamics of quantum materials to determine 
their viability in these purposes.
    And in my own research I'm using the technique of neutron 
scattering to actually visualize the quantum mechanical 
electronic wave function of these--some of these materials, and 
in fact it's in many cases the only method that we have to 
inquire the quantum physics of these materials at the 
appropriate length scale. So I think that the provision of 
world-class facilities for this kind of research is one of the 
important roles of the Department of Energy.
    Chairman Weber. Thank you. In your exchange with 
Congressman Takano, you mentioned looking for a superconductor 
fabric of 100 million----
    Dr. Broholm. MilliK.
    Chairman Weber. MilliK.
    Dr. Broholm. That's a very low temperature, 0.1 above the 
absolute zero. And my point was that that is something that we 
do in the lab, and it teaches us about the fundamental behavior 
of electronic systems. But we can then take that knowledge and 
develop materials that are practical at higher temperature 
based on the same principle. And the connection there is trying 
to make to storage and transmission of energy. I did--while 
there was a discussion, I didn't quite have the opportunity to 
make that, but superconducting--a practical superconducting 
material is a potential component in a large-scale energy 
storage system where you could in fact take the energy being 
generated by a photovoltaic station and put it into a current 
in a superconducting solenoid system that will hold the energy 
for a long period of time without loss and can then disperse 
energy when it is required. So this is another example of there 
being a range of different potential technologies that we have 
to be pursuing.
    Chairman Weber. Is that because it's so low temp, number 
one; and number two, when it releases that energy, doesn't it 
generate heat?
    Dr. Broholm. No. In fact, it doesn't have to be low temp. 
And so this is what we're pursuing as to materials that will 
allow superconductivity to persist at very high temperatures. 
And once you have superconductivity, you have absolutely zero 
resistance. And so imagine you can simply put the current into 
the superconducting ring and then just close the ring and the 
current will persist----
    Chairman Weber. Well, then when you charge it, it doesn't 
produce heat, zero resistance.
    Dr. Broholm. Zero resistance. It just sits there. So as 
long as it is in the superconducting state and then you--when 
you want to release that energy for use, that can then be done 
as well. So it's a really quite interesting potential way of 
storing energy particularly for these intermittent distributed 
energy--renewable energy resources.
    Chairman Weber. Okay. And one last question and then I'm 
going to yield to my good friend from Florida. Dr. Lewis, are 
you seeing discussions--I think in your earlier comments you 
said most of the comments were coming from Japan, China in your 
publication, about half of them. I didn't hear you mention 
Russia in there. Russia is noticeably absent. But are you 
seeing these kinds of discussions in your publication?
    Dr. Lewis. We don't see much from Russia.
    Chairman Weber. Not Russia specifically but the quantum 
part that Dr. Broholm is discussing.
    Dr. Lewis. Not particularly much. Most of the discussions 
are focused toward solar, wind storage----
    Chairman Weber. Right.
    Dr. Lewis. --and more use-inspired things that would be 
true to the energy and environmental science----
    Chairman Weber. Absolutely.
    Dr. Lewis. --is vital.
    Chairman Weber. So, Dr. Broholm, do you know of 
publications that are discussing the superconductivity that 
you're discussing in a quantum fashion? Are there--is that 
discussion being held worldwide?
    Dr. Broholm. Yes, it's a very--countries around the world 
are putting in effort to try to discover a practical 
superconductor, and there are advances being made, and we're 
very optimistic that we'll be successful.
    Chairman Weber. Okay. And then, Dr. Hallinan, and lastly 
for you since I come from the district that has a lot of what 
we call petrotech chemical industry, petroleum and other 
chemical industries, when you're talking about polymers of 
course you're talking about something that kind of gets my 
attention. Are you also hearing that discussion on a worldwide 
basis?
    Mr. Hallinan. Regarding polymer----
    Chairman Weber. Yes.
    Mr. Hallinan. --electrolytes and--yes, absolutely. And we 
have been for decades because they can fill many different 
roles. They can fill hydrogen fuel-cell roles. They can fill 
artificial photosynthesis role. They're batteries, water 
purification, and so there are definitely publications from all 
around the world. Yes. So I----
    Chairman Weber. Okay. Who would you--what country is our 
runner-up if you will, is doing the most--you're hearing the 
most from?
    Mr. Hallinan. I would say probably Italy actually is the 
runner-up to the United States in terms of polymers and for 
membranes, all kinds of polymer membrane applications.
    Chairman Weber. Okay. Thank you. And I yield to my good 
friend from Florida.
    Mr. Grayson. Thanks. A few questions for Dr. Broholm 
regarding superconductivity. Doctor, join me in our time 
machine. We're jumping back to 1986 and the discovery of the 
possibility that you could have much higher temperature 
superconductivity that anybody had ever realized before. People 
thought that anything above 30 K, 30 kelvin was impossible, and 
now suddenly 70, 80, 90 is possible. And nobody knows exactly 
how high you can go, maybe as far as even room temperature. 
Nobody knew 30 years ago. Well, here we are 30 years later and 
we still don't know. What should we have done 30 years ago to 
try to pin down the possibilities and get that science done?
    Dr. Broholm. I think the point here is that these are 
extremely difficult problems. Despite the supercomputers, 
despite the advances in theory of electronic systems, really no 
one would have predicted that materials such as iron and 
selenium, those two elements joined together can actually be a 
superconductor in that case at relatively low temperatures. No 
one would either have been able to predict that when you place 
a single atomic layer of iron and selenium onto strontium 
titanate you actually can greatly enhance the superconducting 
transition temperature to 50 kelvin in that system. And again, 
it's something that even the smartest theorists at this point 
are not able to really predict as an issue, kind of as a basic 
prediction.
    So I think that the statement is that these are simply 
extremely complicated problems because they involve the 
interaction of a very large number of electrons amongst each 
other. On the other hand, there also very, very rich sets of 
materials that give the ones of us who are working in them a 
sense of amazement and a sense of optimism in terms of the 
kinds of properties that we will be able to extract from these 
materials as we advance our understanding. So I think we have 
to take the long view as we look at these properties. It's as 
true today as it was in '86 that there is potential for us to 
create superconducting--practical superconducting materials, 
not necessarily at room temperature but practical for our use 
in energy and information.
    Mr. Grayson. So what should we do right now to bring the 
future forward and make that scientific discovery happen 
sooner?
    Dr. Broholm. I think a lot of things are being done. I 
think perhaps what I would advocate--we talked about a little 
earlier is the close interaction amongst scientists that have 
different perspectives on materials, different techniques and 
different ways of thinking about materials. This tends to be a 
very fruitful exercise. So what appears to be a brick wall for 
a Knudsen, a physicist, a chemist may have a different way of 
thinking about the material that allows you to really tunnel 
through that challenge.
    And so I think bringing together people who are experts in 
synthesis, people who are experts in theory of materials, and 
people who have innovative new methods to probe materials, that 
this is the way that we can best make progress on these very 
complicated but very promising areas of materials development.
    Mr. Grayson. Thanks. I yield back.
    Chairman Weber. Well, I thank the witnesses for their 
valuable testimony and the Members for their questions. The 
record will remain open for two weeks for additional comments 
and written questions from the Members.
    This hearing is adjourned.
    [Whereupon, at 11:49 a.m., the Subcommittee was adjourned.]

                              Appendix II

                              ----------                              


                   Additional Material for the Record


<SKIP PAGES = 000>

                 Statement submitted by Ranking Member
                         Eddie Bernice Johnson
                         

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                         
                         

                                 [all]
</pre></body></html>
